Nos. 19-251 & 19-255
In the
Supreme Court of the United States
Americans for Prosperity Foundation, Petitioner
v.
Xavier Becerra, Attorney General of California,
Respondent
and
Thomas More Law Center, Petitioner
v.
Xavier Becerra, Attorney General of California,
Respondent
On Writ of Certiorari to the United States Court
of Appeals for the Ninth Circuit
Brief of Amicus Curiae James Madison Center
for Free Speech Supporting Petitioners

February 2021

James Bopp, Jr.
Counsel of Record
Richard E. Coleson
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 (telephone)
812/235-3685 (facsimile)
jboppjr@aol.com
Counsel for Amicus Curiae

Question Presented
California’s Attorney General requires submission
of both IRS Form 990 and Schedule B (disclosing donors) to the Register of Charitable Trusts. Amicus curiae addresses an aspect of the following issue:
Whether the Schedule B disclosure requirement
violates charities’ and donors’ freedom of association and speech.

(i)

Table of Contents
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . . (i)
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . (iii)
Interests of Amici Curiae. . . . . . . . . . . . . . . . . . . . . . 1
Summary of the Argument . . . . . . . . . . . . . . . . . . . . 1
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Evidence of Harm and Chill from Compelled
Disclosure of Support for California’s Proposition 8 Supports Requiring Strong, Special Justification for Compelled Disclosure Here. . . . . . . 4
A. Due to the inherent chill on speech and
association, mandating donor disclosure
requires special justification and exemptions.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. California’s Proposition 8 experience provides evidence of harm from donor disclosure. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
C. Harms from Proposition 8 disclosure
chilled speech and association. . . . . . . . . . . . 26
D. This Court and its members have cited and
acted on the ProtectMarriage record. . . . . . . 31
E. The ProtectMarriage record supports requiring strong, special justification for compelled disclosure of political and ideological
association.. . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

(ii)

Table of Authorities
Cases
American Tradition Partnership v. Bullock, 567
U.S. 516 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Buckley v. Valeo, 424 U.S. 1 (1976) . . . . . . . . . . 2, 4, 5
Citizens United v. FEC, 558 U.S. 310 (2010) . . . 1, 31
Doe v. Reed, 561 U.S. 186 (2010) . . . . . . . . . . . . . . . 31
Elrod v. Burns, 427 U.S. 347 (1976) . . . . . . . . . . . . 26
FEC v. Beaumont, 539 U.S. 146 (2003) . . . . . . . . . . . 1
FEC v. Wisconsin Right to Life, 551 U.S. 449 (2007) 1
Hollingsworth v. Perry, 558 U.S. 183 (2010). . . . . . 31
McConnell v. FEC, 540 U.S. 93 (2003) . . . . . . . . . . . 1
McCutcheon v. FEC, 134 S.Ct. 1434 (2014) . . . . . . . 1
NAACP v. Alabama, 357 U.S. 449 (1958) . . . . . . . 1, 4
ProtectMarriage v. Bowen, 752 F.3d 827 (9th Cir.
2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
ProtectMarriage v. Padilla, 135 S. Ct. 1523 (2015) . 2
ProtectMarriage.com-Yes on 8 v. Bowen, 830 F.
Supp. 2d 914 (E.D. Cal. 2011) . . . . . . . . . . passim
(iii)

Randall v. Sorrell, 548 U.S. 230 (2006) . . . . . . . . . . 1
Republican Party of Minnesota v. White, 536 U.S.
765 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
United States v. Carroll Towing Co., 159 F.2d 169
(2d. Cir. 1947) . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
Wisconsin Right to Life v. FEC, 546 U.S. 410 (2006)
........................................ 1
Constitutions, Statutes, Regulations & Rules
U.S. Const. amend I . . . . . . . . . . . . . . . . . . . . . passim
U.S. Supreme Court Rule 37 . . . . . . . . . . . . . . . . . . . 1
Other Authorities
Peter Boghossian, Welcome to Culture War 2.0: The
Greate Realignment (Nov. 8, 2019), americanmind.org/essays/welcome-to-culture-war-2-0
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Reporters Committee for Freedom of the Press, The
Dangers of Doxxing (Spring 2015), www.rcfp.
org/journals/news-media-and-law-spring2015/dangers-doxxing . . . . . . . . . . . . . . . . . . . . . 30
Salvador Rodriguez, Mozilla CEO Brendan Eich
Resigns under Fire for Supporting Prop. 8, L.A.
Times (Apr. 3, 2014), articles.latimes.com/2014/apr/03/
business/la-fi-tn-mozilla-ceo-resigns-under-fireprop-8-20140403 . . . . . . . . . . . . . . . . . . . . . . . . . 30

(iv)

Interest of Amicus Curiae1
The purpose of the James Madison Center for Free
Speech (“Madison Center”) is to support litigation and
public education activities defending the rights of political expression and association. The Madison Center is
an internal educational fund of James Madison Center,
Inc., a District of Columbia non-profit corporation. Madison Center is tax-exempt under 26 U.S.C. 501(c)(3).
See https://www.jamesmadisoncenter.org. Counsel for
Amicus have authored articles, testimony, and comments and litigated numerous cases involving campaign-finance and free-speech issues. James Bopp, Jr.
is Madison Center’s general counsel. Cases in which he
was counsel in this Court include Republican Party of
Minnesota v. White, 536 U.S. 765 (2002), FEC v. Beaumont, 539 U.S. 146 (2003), McConnell v. FEC, 540 U.S.
93 (2003), Wisconsin Right to Life v. FEC, 546 U.S. 410
(2006), Randall v. Sorrell, 548 U.S. 230 (2006), FEC v.
Wisconsin Right to Life, 551 U.S. 449 (2007), Citizens
United v. FEC, 558 U.S. 310 (2010), American Tradition Partnership v. Bullock, 567 U.S. 516 (2012), and
McCutcheon v. FEC, 134 S.Ct. 1434 (2014).

Summary of the Argument
In NAACP v. Alabama, 357 U.S. 449 (1958), this
Court recognized “that compelled disclosure of affiliation with [advocacy] groups . . . may constitute an effective constraint on freedom of association,” id. at 462,
1

Rule 37 statement: Petitioners and Respondent in Nos.
19-251 and -255 consent to the filing of this brief; no counsel
for any party authored this brief in whole or in part; and no
person or entity other than amicus or its counsel funded its
preparation or submission except for funding provided by
the National Right to Life Committee, Inc.

2

so compelled disclosure requires special justification.
In Buckley v. Valeo, 424 U.S. 1 (1976), this Court found
that information about donors to organizations is similarly protected, so (i) all compelled disclosure requires
special justification id. at 65-66, and (ii) even where it
is generally justified, there must be exemptions for
groups with a reasonable probability of threats, harassment, and reprisals, id. at 74. The legal harm of
publicly exposing donors who wish not to be exposed is
that it deters their affiliation with the groups to which
they donate and thereby infringes on their First
Amendment-protected rights of political association
and collective speech.
Limiting the number of organizations providing donors’ names and addresses by required submission of
Schedule B decreases the potential for harm triggered
by exposure to state officials and personnel and by inadvertent or intentional public disclosure. And consideration must be given to the “the gravity of the resulting injury.” United States v. Carroll Towing Co., 159
F.2d 169, 173 (2d. Cir. 1947). That is shown herein.
Extensive evidence of such threats, harassment,
and reprisals was submitted in ProtectMarriage.comYes on 8 v. Bowen, 830 F. Supp. 2d 914 (E.D. Cal. 2011)
(“ProtectMarriage”), affirmed in part, dismissed in part,
and remanded, 752 F.3d 827 (9th Cir. 2014), cert. denied sub nom. ProtectMarriage v. Padilla, 135 S. Ct.
1523 (2015),2 which informs the present cases. ProtectMarriage was a political committee formed to support
Proposition 8—a ballot proposition and constitutional
2

Buckley’s reasonable-probability test, 424 U.S. at 74,
was interpreted narrowly and ProtectMarriage didn’t get
the exemption it sought despite its harms.

3

amendment recognizing marriage as between one man
and one woman—and California required disclosure of
its donors. This resulted in substantial harm to the
advocacy group and its donors, submitted as evidence
in ProtectMarriage and summarized here.
Because California required public release of identities, home addresses, and employers of donors to ProtectMarriage, political opponents were able to publish
this personal information on websites with maps showing donors’ homes and businesses so that aggressive
activists could attack them there. The result of this
vicious campaign was overwhelming evidence that the
publicly disclosed information led directly to threats,
harassment, and reprisals for the donors to the advocacy group. Documents filed provide: (1) undisputed
testimony and evidence of over 80 instances of threats,
harassment, and reprisals against 58 “John Does”; (2)
links to 14 videos reporting and in some cases recording ugly and sometimes violent confrontations and “protests” with Prop 8 supporters, and; (3) 157 published
accounts of threats, harassment, and reprisals directed
at supporters of Prop 8. These vicious campaigns damaged their victims and cast a chill over supporters of
traditional marriage who might have considered working with and contributing to ProtectMarriage or similar organizations.
This Court and its members have cited and acted on
the evidence in ProtectMarriage, making it the quintessential example of threats, harassment, and reprisals
emanating from disclosure of contributors.
The harm and chill from compelled disclosure of
donors in ProtectMarriage show again why requiring
submission of IRS Form 990 Schedules B to California
requires strong, special justification.

4

Argument
Evidence of Harm and Chill from Compelled
Disclosure of Support for California’s Proposition 8 Supports Requiring Strong, Special
Justification for Compelled Disclosure Here.
A. Due to the inherent chill on speech and association, mandating donor disclosure requires
special justification and exemptions.
Because compelled disclosure of political and ideological association imposes an inherent chill on speech
and association, NAACP, 357 U.S. at 462 (“compelled
disclosure of affiliation with [advocacy] groups . . . may
constitute an effective constraint on freedom of association”), this Court in its wisdom has provided two sorts
of protection against such compelled disclosure.
First, all compelled disclosure must be specially
justified due to the inherent chill it imposes. In Buckley, 424 U.S. 1, this Court recalled the inherent chill
established in NAACP and found association by contribution to be as protected as association by membership, id. at 65-66, so this Court required special justification for compelled disclosure of contributions too.
The chill is inherent because, once one is disclosed, all
that is required for harm is for hostile forces to target
you, so the potential is always there. So the chill need
not be proven and the government always must specially justify compelling disclosure, whether or not a
group fits the second protection category.
Second, even where compelled disclosure has been
specially justified, and so permitted, there must a second protection category. That provides exemptions for

5

groups establishing a reasonable probability of threats,
harassment, and reprisals. Id. at 74. Notably, no group
need prove the second category to require the government to meet is duty under the first category to specially justify its compelled disclosure.
The evidence summarized below from California’s
Proposition 8 experience is a contemporary example of
why compelled disclosure of political and ideological
association always requires special justification. The
compelled disclosure of supporters of Proposition 8
(supporting traditional marriage) left those disclosed
supporters subject to attack whenever someone chose
to target them. And the chill on association and collective speech was well established in ProtectMarriage.
California’s requirement that groups file IRS Schedule B discloses donors’ political and ideological associations to state officials and personnel and increases the
risk of public exposure. Given the inherent chill in such
compelled disclosure, the government must specially
justify its disclosure requirement. Limiting the number
of organizations providing donors’ names and addresses by required submission of Schedule B decreases the potential for harm triggered by inadvertent
or intentional disclosure, while expanding that number
into more jurisdictions increases that harm potential.
And consideration must be given to the “the gravity of
the resulting injury.” Carroll Towing Co., 159 F.2d at
173. That is established next.
B. California’s Proposition 8 experience provides evidence of harm from donor disclosure.
Extensive evidence of donor harassment3 was
3

“Harassment” is used collectively here to include

6

submitted in ProtectMarriage, 830 F. Supp. 2d 914,
which evidence informs the present cases. ProtectMarriage was a citizen-advocacy group in California’s Proposition 8 (also called “Prop 8”) campaign,
which sought a constitutional amendment to protect
traditional marriage in the November 2008 California
state elections. As Proposition 8 donor information was
disclosed—required by California campaign-finance
law—widespread, serious harassment of donors to
ProtectMarriage occurred, along with harassment of
those identified in any way as Prop 8 supporters. Together, this evidence supported an exemption that
ProtectMarriage sought from disclosing donors under
Buckley’s reasonable-probability test, 424 U.S. at 74,
but the Test was interpreted narrowly and ProtectMarriage didn’t get the exemption. But this evidence also
supports the special justification required for all such
disclosure.
The ProtectMarriage district court summarized the
evidence of harms in a useful way. 830 F. Supp. 2d at
917-23.
That evidence was from Plaintiffs’ summary-judgment Statement of Undisputed Facts (“Fact Statement”) and exhibits, which provide valuable evidence
of harm for present consideration. The Fact Statement
is doc. 251 on the docket for No. 2:090CV-00058-MCEDAD, available via https://pacer.uscourts.gov/.
The Fact Statement cites (inter alia) Exhibits 1
“threats, harassment, and reprisals.” Buckley, 558 U.S. at
367. Notably, this evidence applies both to a disclosure exemption (which was sought by ProtectMarriage) and to the
general requirement that all compelled disclosure be specially justified (at issue with Schedule B disclosure).

7

through 4 (each with multiple parts), which are at
docs. 246–1 through 250–3 on the docket. 4, 5
Generally, the evidence showed that, because California required the public release of identities, home
addresses, and employers of donors to ProtectMarriage,
political opponents were able to publish this personal
information on numerous websites, including MapQuesting the donors’ homes and businesses so that
aggressive activists could attack them there. And they
did. The result of this vicious campaign was overwhelming evidence that the publicly disclosed informa4

The Fact Statement and exhibits are also available at
www.jamesmadisoncenter.org/cases/files/protect-marriagebo w e n/ pl ai nt i f f s -s t at e m e nt-undisputed.pdf and
www.regulations.gov/document?D=IRS-2019-0039-8286. All
active links herein were checked February 22, 2021. Some
links cited in the evidence are now inactive (and are so
noted) but were active when the evidence was introduced
and so are historically accurate.
5

Plaintiffs’ Exhibits 1 through 4 were filed in support of
ProtectMarriage’s (and other plaintiffs’) summary-judgment
motion, i.e., doc. 245. Exhibits 1 through 4 contain broad
categories of exhibits and were broken into smaller parts for
filing: Exhibit 1 is doc. 246–1 and doc. 246–2 (John Doe
declarations); Exhibit 2 is doc. 246–3 (election results);
Exhibit 3 is doc. 246–4 (videos); Exhibit 4 is doc. 247–1
through doc. 250–3 (online and news articles and blog postings). Within Exhibits 1 through 4 are sub-exhibit identifications, e.g., Exhibit 4 is divided into ex. 4-1 through ex. 4157. Despite being broken up for filing purposes each of
plaintiffs’ Exhibits 1 through 4 is internally numbered in
the lower-right footer with numbers that are sequential
throughout each (regardless of it being broken up), and citations herein are to those internal Exhibit numbers.

8

tion led directly to harassment directed at donors to an
advocacy group. Documents filed provide: (1) undisputed testimony and evidence of over 80 previously
unreported instances of harassment against 58 “John
Does”; (2) links to 14 then-contemporary videos reporting and in some cases recording ugly and sometimes
violent confrontations and “protests” with Prop 8 supporters, and; (3) 157 contemporarily published accounts of harassment directed at supporters of Prop 8.
Among the incidents reported in this evidence were
death threats, threats of violence, vandalism, threats
of destruction of property, arson, threats of arson, angry and lewd protests, intimidating emails and phone
calls, mailed envelopes of suspicious powder, entire
web sites dedicated to blacklisting supporters of traditional marriage and similar causes, loss of employment
and job opportunities, intimidation and reprisals on
campus and in the classroom, economic reprisals and
demands for “hush money,” and gross expressions of
anti-religious bigotry, including vandalism and threats
directed at religious institutions and religious adherents. Not surprisingly, this vicious campaign damaged
the victims of it and cast a chill over supporters of traditional marriage who might have considered working
with ProtectMarriage or other organizations in favor of
traditional marriage. See generally Statement. See also
ProtectMarriage, 830 F. Supp. 2d at 917-23 (district
court’s evidence summary).
More specifically, on November 4, 2008, California
passed Proposition 8, defining marriage as between
one man and one woman. During and after the campaign, Prop 8 opponents publicized on the Internet the
names, employers, and contact information of Proposition 8 campaign contributors from public filings to ha-

9

rass and intimidate them using (inter alia) then-active
links at www.eightmaps.com6 and www.californiansagainsthate.com.7 This evidence was summarized in the
Facts Statement and some quoted selections follow
(with paragraph numbers replaced by bullet points):
EightMaps.com and Blacklists
• The efforts of individuals or groups who wish
to inappropriately target persons who supported
traditional marriage are greatly facilitated by
Internet web sites that combine information
gleaned from state-mandated political reports with
other publicly available information, thus enabling
those so inclined to more easily threaten and intimidate marriage supporters at home and at work.
Fact Stmt. ¶ 66.
• For example, the web site EightMaps.com
[now inactive] is a GoogleMaps “mashup”8 that combines data obtained from the California Secretary
6

Though this is no longer active, the Wayback Machine
has page snapshots (not now disclosing donors). See, e.g.,
https://web.archive.org/web/20110224025618/http://www.
eightmaps.com/.
7

Though this is no longer active, the Wayback Machine
has page snapshots(not now disclosing donors). See, e.g.,
http://www.californiansagainsthate.com/.
8

“PCMag.com, ‘Mashup,’ http://www.pcmag.com/encyclopedia_term/0,,t=&i=55949,00.asp ([now inactive]) (defining ‘mashup’ as: ‘A mixture of content or elements. For example, an application that was built from routines from
multiple sources or a Web site that combines content and/or
scripts from multiple sources is said to be a mashup. The
term became popular in the 2005 time frame.’).” Fact Stmt.
¶ 67 n.7.

10

of State (for political donation reports) with an interactive geographical map. (Exs. 4-152, 4-153.) An
individual can use the web site to search for any
city and print a map graphically illustrating the
name, address, amount, occupation, and employer
of each individual in that city who donated to Prop.
8. A New York Times article commented, “Eightmaps.com is the latest, most striking example of
how information collected through disclosure laws
intended to increase the transparency of the political process, magnified by the powerful lens of the
Web, may be undermining the same democratic
values that the regulations were to promote.” (Ex.
4-154.)
Fact Stmt. ¶ 67.
• Other web sites popularly called “blacklists”
have sprung up that list citizens (and groups as
well), by name, that contributed in support of Prop.
8. (E.g., Exs. 4-58, 4-133, 4-139.) Each of the following web sites lists donors or known supporters of
traditional marriage and encourages action against
them:9
9

“The web site ‘You Can’t Hide Your Hate’ identifies
individual supporters of Prop. 8, but includes a disclaimer
that the web site does not advocate violence, vandalism, or
threats, or, for that matter, even boycotts. (Ex. 4-114.) However, as the Long Beach Press-Telegram noted in an editorial, the web site’s actions speak louder than its quiet disclaimer. If nothing else, the editorial pointed out, the name
of the web site—You Can’t Hide Your Hate—‘tars people .
. . with a broad and clumsy brush,’ adding that so long as
this debate rages, what is needed is a ‘huge dose of civility.’
(Ex. 4-113.)
In addition, at least two major California newspapers

11

a. http://www.californiansagainsthate.com [now
inactive] (Ex. 4-62)
b.
http://fighttherightwingnuts.blogspotcom/2009/01/pro-h8-bigots-who-donated-in-paloalto.html [now inactive] (Ex. 4-110)
c. http://knowthyneighbor.org/ [now inactive] (Ex.
4-109)
d. http://www.mormonsstoleourrights.com/ [now inactive]10
e. http://mormonsfor8.com/11 [now inactive] (Exs.
4-106, 4-105)
f. http://www.stopthemormons.com/ [now inactive]
(Ex. 4-104)
have compiled searchable databases on their respective web
sites that enable easy access to look up Prop. 8 contributors.
(Exs. 4-138, 4-83.)” Fact Stmt. ¶ 68 n.8.
10

“It appears that MormonsStoleOurRights.com has
been stripped of its content, but it is evident from other
Internet blogs and article that the site was, for a time at
least, the focal point of a ‘petition drive . . . to the IRS to
strip the Mormon church of its tax exempt status.’ (See, e.g.,
Ex. 4-107.) In any event, the site MormonsStoleOurRights.
com was only one of several web sites that openly called for
the revocation of the Mormon church’s tax-exempt status
because of its support for traditional marriage. (E.g., Exs.
4-14, 4-15, 4-19.)” Fact Stmt. ¶ 68 n.9.
11

“Mormonsfor8.com is a web site whose goal is to identify every Mormon donor to Prop. 8. The site actively solicits
help from visitors to the web site. The web site lists every
individual contributor to Prop. 8, and whether each contributor is Mormon or not Mormon. It encourages visitors to the
site to review the list, to spot the Mormons they know, and
report them by sending an email to yeson8donors@mormonsfor8.com. (Ex. 4-105.)” Fact Stmt. ¶ 68 n.10.

12

g. http://www.antigayblacklist.com/12 [now inactive]
(Ex. 4-10)
h. http://www.hrc.org/news/11542.htm [now inactive] (Ex. 4-21)
i. http://www.dontbuyfrombigots.com/ [now inactive](Ex. 4-28)
j. http://www.afterellen.com/node/39787 [now inactive] (Ex. 4-98)
k. http://boycotta-1selfstorage.com/ [now inactive]
(Ex. 4-134).
Fact Stmt. ¶ 68.
• The blacklists have been used, for instance, to
go onto the restaurant web site yelp.com, and give
bad reviews to restaurants that supported traditional marriage. (Ex. 4-123.) Others have spread
the word via email (e.g., Exs. 4-129, 4-154) and on
sites like Facebook.com (e.g., Ex. 4- 137), Craigslist.com (e.g., Ex. 4-123), and InsiderPages.com
(e.g., Ex. 4-27).
12

“Though the web site AntiGayBlacklist.com appears
to have been removed, a print-screen of the web site is reproduced in Exhibit 4-190. Multiple media reports confirm
its existence and its purpose. Time magazine, for example,
reported that on ‘AntiGayBlacklist.com, individuals who
gave money toward Prop. 8 are publicized, and readers are
urged not to patronize their businesses or services.’ (Ex.
4-142; see also, e.g., Ex. 4-128 (reporting that the writer
personally ‘looked up the Anti-Gay Blacklist, a collection of
names and affiliations lifted from the public record of political donations to the Yes on 8 campaign’).) Moreover, the
original Anti-Gay Blacklist has been replicated (and is still
available) at several web sites. (See, e.g., Exs. 4-84, 4- 99,
4-103.)” Fact Stmt. ¶ 68 n.11.

13

Fact Stmt. ¶ 69.
• Other emerging technology is also threatening
the privacy of our political views. A new product
called “Inbox Influence” is now being marketed by
the Sunlight Foundation “that allows you to see the
political contributions of the people and organizations that are mentioned in emails you receive”—simply by dragging the mouse over the
name of any person or entity in the body of the
email. (Ex. 4-27.) The Sunlight Foundation touts its
product:
Inbox Influence provides details on any entity in
the body of the email, plus information on both
the sender of the email and the company from
which it was sent. With it, you can even see how
your friends and family have given to political
campaigns. Perhaps Uncle Joe has more mainstream views after all?
(Ex. 4-26.)
Fact Stmt. ¶ 70.
• Several news reports confirm that the blacklists and other emerging political-exposure technology are being compiled by referencing governmentcompiled political exposure reports. For example,
the Los Angeles Times reported that “activists”
found their targets by “por[ing] though campaign
contribution databases” (Ex. 4-123), and an article
appearing in the San Francisco Chronicle reported
that same-sex marriage advocates “harness[ed]
technology and open-records laws in their efforts” to
“focus on the Mormons” (Ex. 4-60).
Fact Stmt. ¶ 71.
• Those who publish the blacklists have used
the fact that their data is compiled from publicly

14

available reports as justification for their actions.
Fred Karger—founder of CaliforniansAgainstHate.
com, which has its own blacklist dubbed the “dishonor roll”—was quoted: “People are going to do
what they want, and it’s in this society where you
have campaign reporting that is all public information.” (Ex. 4-123.)
Fact Stmt. ¶ 72.
• The advent of Internet blacklists, together
with the tense and hostile atmosphere surrounding
the debate over same-sex marriage, caused many in
the media (across the political spectrum) to openly
question whether society can handle, civilly, the
instant availability of public records exposing private citizens’ controversial political views. The Los
Angeles Times, for instance, ran an editorial entitled “Prop. 8—Boycott, or Blacklist?” with the subtitle “Shunning businesses is one thing; intimidation
crosses the line.” The Times described the actions of
those who blacklisted and boycotted Prop. 8 donors
as the “vengeful campaign against individuals who
donated to the gay-marriage ban.” “As much as we
abhorred Proposition 8, there’s nothing to cheer
about when private individuals are afraid to donate
to the political campaigns of their choice because it
may cost them their livelihood.” (Ex. 4-115.)
Fact Stmt. ¶ 73.
• Likewise, The New York Times published an
article critical of what it called the “ugly specter of
intimidation”—referring to several documented episodes of threats, harassment, and reprisals:
With tools like eightmaps—and there are bound
to be more of them—strident political partisans
can challenge their opponents directly, one voter

15

at a time. The results, some activists fear, could
discourage people from participating in the political process altogether.
(Ex. 4-154.)
Fact Stmt. ¶ 74.
The described harassment campaign was facilitated
by the compelled disclosure of contributors to committees supporting Proposition 8. This is clear from the
fact that some John Does who made Prop 8 contributions that were publicly disclosed and suffered harassment were not otherwise known as Prop 8 supporters
than by contributions. But equally important is evidence of persons harassed for being known Prop 8 supporters generally because, if one is likely to be harassed for supporting a cause, disclosure identifies one
as a supporter. The Fact Statement provides evidence
of both situations in (inter alia) summaries of the John
Doe Declarations (with cites to the record). Declaration
samples follow. Doc. 246–1.
Declaration of John Doe #1
John Doe #1 donated funds to ProtectMarriage.com, placed a yard sign in front of his home,
and made phone calls supporting Proposition 8 on
behalf of a church group. He was required to list the
name of his business when he contributed to
ProtectMarriage.com, and, consequently, in October
2008, someone papered the cars in his parking lot
with flyers referencing his support for Proposition
8 and the amount of his contribution. His business
has since been targeted by numerous boycotts, several orchestrated through Facebook. At one point,
someone paid for a sponsored link on Google so that
a search for John Doe #1’s store resulted in a

16

website referencing his support for Proposition 8
and urging a boycott. Additionally, several negative
reviews of his business were posted on Yelp.com
referencing his donation to Plaintiff. Other websites
have posted similar reviews.
John Doe #1’s business has twice been picketed
and, in November 2008, opponents of Proposition 8
allegedly orchestrated a march intended to culminate in further picketing of John Doe #1’s business.
According to John Doe #1, the protesters have
become quite aggressive and he has received numerous letters and hundreds of emails condemning
his support of the Proposition. Approximately 30-40
people have frequented his business to express
their displeasure with his support of the ballot initiative. John Doe #1 eventually became concerned
that opponents of Proposition 8 would tamper with
his products so he installed sixteen additional security cameras. John Doe #1 contends that he will not
contribute in the future and does not believe his
business should suffer repercussions because of his
personal donation. (Decl. of John Doe 1.)
Fact Stmt. ¶ 143.
Declaration of John Doe #2
John Doe #2 made two donations to ProtectMarriage.com and posted a “Yes on 8” bumpersticker on
his car. Subsequently, in November 2008, someone
distributed a flyer, in the town of his residence, labeling him a bigot. Additionally, the flyer listed his
religious affiliation and the dollar amount of his
contributions. According to John Doe #2, no one but
his family was aware of his financial contribution,
so he believes the information must have derived
from public disclosure by the State. John Doe #2

17

also claims that he will be unlikely to contribute to
similar causes in the future. (Decl. of John Doe 2.)
Fact Stmt. ¶ 144.
Declaration of John Doe #4
John Doe #4, an attorney who is the sole shareholder in his firm, donated funds to NOMCalifornia. In support of Proposition 8, John Doe #4 wrote
articles supporting Proposition 8 and conducted
lectures to local groups in support of the initiative.
He also held a fundraiser at his home to support
the ProtectMarriage.com - Yes on 8 campaign. A
group of protesters conducted a demonstration at
the entrance to his community and attempted to
hand flyers to guests as they passed through the
gate to the neighborhood.
Over the course of November 13-16, John Doe #4
received approximately 15-20 harassing emails.
One email stated, “hello propogators & litigators
burn in hell.” Exh. B. Another stated, “Congratulations. For your support of prop 8, you have won our
tampon of the year award. Please contact us if you
would like to pick up your prize.” Id. At least one
message referenced the amount of John Doe #4’s
contributions and the amount of an additional
short-term loan John Doe #4 had provided to ProtectMarriage.com.
Finally, John Doe #4’s name, business and the
amount he donated were posted on the website
www.californiansagainsthate.org. (Decl. of John
Doe 4.)
Fact Stmt. ¶ 146.
Declaration of John Doe #5
John Doe #5 contributed funds to ProtectMarriage.com. In November 2008, John Doe #5 received

18

an email suggesting that his company’s image
would be damaged as a result of his support of
Proposition 8. John Doe #5 now feels threatened
and uneasy knowing that his company could be targeted. (Decl. of John Doe 5.)
Fact Stmt. ¶ 147.
Declaration of John Doe #6
John Doe #6 donated funds to ProtectMarriage.com. He did not engage in any other public support of the initiative. His name and the amount of
his donation was listed on www.californiansagainsthate.com. At the end of November 2008, he
received a postcard allegedly insulting him for supporting the ballot measure. The postcard was typed
and stated in part, “We just hope you are proud of
your participation in this Great Crusade. Just think
of how you have contributed to the economy with
the money you donated! It doesn’t matter that there
are thousands of worthwhile charities that could
have used those funds to feed starving people,
clothe the homeless, and find cures for cancer and
other life-threatening diseases. You must be so
proud!” (Decl. of John Doe 6.)
Fact Stmt. ¶ 148.
Declaration of John Doe #7
John Doe #7 is the senior pastor of a church and
donated funds to ProtectMarriage.com. His family
members displayed bumper stickers on their cars
and displayed yard signs in front of their house.
John Doe #7’s church served as a distribution center for the petitions initially circulated in support of
the Proposition. The church also distributed yard
signs and bumper stickers. Additionally, members
of the church telephoned approximately 275 people

19

on behalf of ProtectMarriage.com.
John Doe #7 received one phone call at the
church stating that if he was against gay marriage,
he should equally be against divorce. Twice, the
“Yes on 8” bumper stickers were ripped off of his
wife’s car at her place of employment. One of these
times, an anti-Proposition 8 note was left on the
windshield. The typed note stated, “Why would you
want to deprive others of fundamental human
rights? What if a close friend, family member or
co-worker was gay and wanted to get married?
Wouldn’t you want to support the love they have for
their partner and want them to have the same
rights as you and others? Please re-think your position. There are so many more important issues in
this world that need our attention rather than gay
marriage. We need to learn tolerance, acceptance
and love of each other. PLEASE VOTE NO ON
PROP. 8.” Exh. A. Thereafter, he placed bumper
stickers inside of the car windows with tape so that
they could not be removed. (Decl. of John Doe 7.)
Fact Stmt. ¶ 149.
Declaration of John Doe #8
John Doe #8 contributed funds to ProtectMarriage.com, displayed a bumper sticker on his car, and
placed a yard sign in his front yard. John Doe #8
also attended numerous rallies, three press conferences, and spoke at a number of churches in Los
Angeles, Orange County, and San Diego in support
of Proposition 8. Additionally, he participated in
panel discussions involving same-sex marriage. Finally, John Doe #8 attended an election night gathering at which he was photographed. That photograph was published in at least one periodical and

20

possibly in numerous others.
John Doe #8’s yard sign was twice stolen and
destroyed. After his photograph was published, he
began receiving harassing letters, e-mails and at
least one phone call at his workplace. One such
message stated, “Jesus doesn’t love you! He will
punish you in hell for voting to deny a minority the
same equal rights the rest of us have. You’re as bad
as the racist white people who used to enjoy banning black people the same rights as them. The rest
of the world is disgusted by your actions. Best start
rethinking your position NOW!” Exh. B. He has
also received harassing messages on his MySpace
and Facebook accounts.
As a result, John Doe #8 will be reluctant to contribute to similar causes in the future. (Decl. of
John Doe 8.)
Fact Stmt. ¶ 150.
Declaration of John Doe #9
John Doe #9 attended an election night gathering for supporters of Proposition 8. A photograph
taken of him that night was published in at least
one periodical and may have appeared in numerous
others.
Since publication of this picture, John Doe #9
began receiving harassing messages on his MySpace and Facebook accounts. Many of these contained profanity and one threatened him with assault.
In November 2008, John Doe #9 arrived home to
a harassing message on his answering machine. A
man, in a mocking tone, stated that the people in
the picture with him were “Nazis” and against human rights. Additionally, he stated, “I certainly

21

hope that someday somebody takes away something
from you and then you’ll realize what a [expletive]
[expletive] you are.”
John Doe #9 also received several harassing
emails and phone calls at work. Some of the messages stated that the individuals knew where he
worked and that they were going to attempt to have
him fired. Additionally, other departments and employees received an email stating that he came
“from a long line of bigots and racists.”
In November 2008, in response to the above incidents, John Doe #9 filed a police report, began coordinating with security to ensure his safety at work,
and changed his home phone number.
As a result, John Doe #9 would think carefully
about the possible consequences of donating to or
publicly supporting a similar cause in the future.
(Decl. of John Doe 9.)
Fact Stmt. ¶ 151.
The ProtectMarriage Fact Statements also summarized harms established by plaintiffs evidence under
the headings of (inter alia) “Death Threats,” Doc. 251
at 5-6 (¶¶ 31-33); “Violence and Threats of Violence,”
id. at 6-7 (¶¶ 34-35); “Chilled Speech,” id. at 7-9
(¶¶ 36-52); “Forced Resignations, Boycotts, and Demands for ‘Hush Money,’” id. at 9-13 (¶¶ 53-65); “AntiReligious Hostility: Vandalism and Overt Threats,” id.
at 16-25 (¶¶ 75-107); “Vandalized Vehicles, Homes,
and Commercial Buildings,” id. at 25 (¶¶ 108-16); “Harassing and Intimidating Telephone Calls,” id. at 26
(¶¶ 117-20); “Emails and Letters,” id. at 26-27 (¶¶ 12127); “Other Acts of Intimidation,” id. at 27-28 (¶¶ 12831); and “Harassment and Intimidation on Campus

22

and in the Classroom,” id. 29-31 (¶¶ 138-42).
These cannot all be excerpted here, but some further summarized evidence is provided next, starting
with “Death Threats”:
Death Threats
• In California, the mayor of Fresno and a local
pastor received death threats for opposing same-sex
marriage. The threat against the mayor stated,
“Hey Bubba, you really acted like a real idiot at the
Yes of [sic] Prop 8 Rally this past weekend. Consider yourself lucky. If I had a gun I would have
gunned you down along with each and every other
supporter.” (Exs. 4-2, 4-3, 4-4.)
Fact Stmt. ¶ 31.
• The same perpetrator also mentioned a “little
surprise” for a local pastor (who voiced support for
traditional marriage) and “his congregation of
lowlifes.” “Keep letting him preach hate and he’ll be
sorry,” the perpetrator threatened. “He will be
meeting his maker sooner than expected.” (Exs. 4-2,
4-3, 4-4.) The death threat against the pastor came
“just days after some one egged [his] home and
church.” (Ex. 4-5.) The threat also stated that anyone in Fresno displaying a Yes on Prop. 8 yard sign
or bumper sticker was “in danger of being shot or
firebombed.” (Exs. 4-2, 4-3, 4-4.) Police took the
threats seriously, launched a criminal investigation, and took extra steps to protect the mayor and
pastor. (Exs. 4-5, 4-6.)
Fact Stmt. ¶ 32.
• In 2008, a small group of Christians entered
the “Castro District”—a predominantly homosexual
neighborhood in San Francisco—to sing hymns and
pray on the public sidewalks, something they had

23

been doing on a regular basis for years. (Exs. 4-7,
4-8, 4-9, 5-1.) On this occasion, however, their ordinarily peaceful gathering quickly escalated into a
menacing situation. A large crowd of homosexuals
surrounded the group, and one of the homosexuals
hit one of the Christian women in the head with a
book, knocked her to the ground, and then kicked
her while she was lying on the ground. (Exs. 4-7,
4-8, 3-1.) The angry crowd shouted words like “haters” and “bigots” and then “started throwing hot
coffee, soda and alcohol on [them] and spitting (and
maybe even peeing) on [them].” (Ex. 4-8.) Several in
the crowd started taking pictures of the Christians,
threatening, “We’re going to kill you. We know who
you are.” (Ex. 3-2.)
The group was surrounded by several guys with
whistles, who “blasted them inches away from
[their] ears continually.” (Ex. 4-8.) The mob then
became violent, shoving and kicking some members
of the group. Some shouted death threats at the
group’s leader. A man in the Christian group reported that someone in the throng “repeatedly tried
to pull his pants down.” (Ex. 4-7.) Video footage
posted on the Internet shows a band of police officers dressed in riot gear fending off the angry crowd
and escorting the Christians to safety. (Exs. 5-2,
5-3.) A local news source reported that “San Francisco Police officers in riot gear formed a line and
escorted the religious group into a van to safely get
them out of the area.” (Ex. 4-9.)
Fact Stmt. ¶ 33.
The ProtectMarriage record included extensive evidence of economic harm from being identified as a supporter of Prop 8, including by being a disclosed donor.

24

Doc. 251 at 9-13 (¶¶ 53-65). Excerpts follow:
Forced Resignations, Boycotts, and Demands
for “Hush Money” . . . .
• Some were adamant about retribution. Chad
Griffin, a political advisor to Hollywood executives
said, “A dollar to the yes campaign is a dollar in
support of bigotry, homophobia and discrimination.
There are going to be consequences. Any individual
who has held homophobic views and who has gone
public by writing a check, you can expect to be publicly judged. Many can expect to pay a price for a
long time to come.” (Ex. 4-116.)
Fact Stmt. ¶ 55.
• Scott Eckern was employed as director of the
nonprofit California Musical Theater in Sacramento
before being targeted for personally donating
$1,000 to Prop. 8. Once Mr. Eckern’s support for
traditional marriage was discovered, the theater
was “deluged” with criticism from prominent artists
who supported same-sex marriage. (Ex. 4-117.)
Critics included Marc Shaiman, the composer of
Hairspray, who stated that his work could not be
performed at the theater because of Mr. Eckern’s
support for traditional marriage. (Exs. 4-118; see
also Exs. 4-119, 4-120.) Mr. Eckern eventually resigned. (Exs. 4-117, 4-120, 4-121.)
Fact Stmt. ¶ 56.
• Richard Raddon was the director of the Los
Angeles Film Festival before he landed in the crosshairs of traditional marriage opponents. Mr.
Raddon personally donated $1,500 to Prop 8. As in
the case of Mr. Eckern, once information about Mr.
Raddon’s personal donation was disclosed to the
state and published on the Internet, he became a

25

target of traditional marriage opponents. (Ex.
4-117; see also Ex. 4-122.) According to an op-ed in
the Wall Street Journal, “A threatened boycott and
picketing of the next festival forced him to resign.”
(Ex. 4-117.)
Fact Stmt. ¶ 57.
• Some donors were targeted for truly insignificant contributions. Marjorie Christoffersen was a
67-year-old restaurant employee who donated $100
to support traditional marriage in California. (Ex.
4-58.) Once information about Ms. Christoffersen’s
$100 donation was published on the Internet, traditional marriage opponents launched a protest
against El Coyote, the restaurant where she worked
—even though the restaurant itself had not made a
donation—prompting the restaurant to offer activists a free brunch and Ms. Christoffersen to offer an
apology. (See Ex. 4-58.) However, when Ms. Christoffersen refused to renounce her support for Prop.
8—like Scott Eckern and Richard Raddon, Marjorie
Christoffersen is a Mormon—the meeting “turned
ugly” and “[b]oisterous street protests erupted that
night.” (Ex. 4-58.) “Hundreds of protesters converged on [the restaurant] . . . , and the picketing
got so heated that LAPD officers in riot gear had to
be called.”5 (Ex. 4-123.) The Los Angeles Times referred to the demonstrators as an “angry mob.” (Ex.
4-124.) “The mob left, but so did the customers” (Ex.
4-124), the Times reported, and Ms. Christoffersen
decided to take a leave of absence to protect the restaurant (which is owned by her mother) and the
other employees who worked there. (Ex. 4-58; see
also Ex. 4-125.)
Fact Stmt. ¶ 58.

26

C. Harms from Proposition 8 disclosure chilled
speech and association.
From a First Amendment perspective, chilled
speech is a great, irreparable harm. See, e.g., Elrod v.
Burns, 427 U.S. 347, 373 (1976). And there was ample
evidence of speech being chilled by the Prop 8 harassment, which seems to have been an intent of that harassment. Doc. 251 at 7-9 (¶¶ 36-52). Excerpts follow:
Chilled Speech
• A California woman, though “ashamed to admit” it, refused to put a bumper sticker on her car
in support of traditional marriage “because of the
aggression directed towards [her] family and
friends that resulted from their [public] support.”
(Decl. of John Doe 39.)
Fact Stmt. ¶ 36.
• Another woman decided to remove the traditional marriage bumper sticker from her car after
someone keyed her car and let the air out of the
tires while she was in the grocery store. (Decl. of
John Doe 12.)
Fact Stmt. ¶ 37.
• A woman from Michigan who had “no idea
that [her] name would be made public” for making
a donation in support of Prop. 8, admitted that had
she known, she “probably would not have donated”
because it “had been [her] intention to remain anonymous.” (Decl. of John Doe 27.)
Fact Stmt. ¶ 38.
• One father, concerned about the safety of his
children, determined that he will no longer speak
out publicly in support of traditional marriage.
(Decl. of John Doe 30.)

27

Fact Stmt. ¶ 39.
• Another woman declared she would have to
“seriously consider . . . the safety of [her] family in
the future when deciding to support a cause similar
to Proposition 8.” (Decl. of John Doe 45.)
Fact Stmt. ¶ 40.
• Another supporter will “think twice” about
supporting a similar cause in the future because
she is “worr[ied] that someone could go after [her
family.]” (Decl. of John Doe 19.)
Fact Stmt. ¶ 41.
• One father with young children will consider
donating “a lesser amount under the disclosure
threshold” in the future, or possibly donating to an
organization in such a way that would not require
him to divulge his name. (Decl. of John Doe 23.)
Fact Stmt. ¶ 42.
• And another woman admitted that her support for a similar cause in the future was “negatively affect[ed]” by the fact that her yard sign was
stolen while her neighbors’ signs supporting
same-sex marriage were left untouched throughout
the entire campaign. (Decl. of John Doe 44.)
Fact Stmt. ¶ 43.
• Similarly, a mother in California who witnessed repeated vulgarities at sign-waving events
said she felt nervous and scared, chose not to take
her children with her, and worried about future
violence to her family should she decide to support
a similar cause in the future. (Decl. of John Doe 13.)
Fact Stmt. ¶ 44.
•Another woman concluded that in the future
she would make sure that at least one man was
with each group of sign wavers to help ensure the

28

safety and protection of the group. (Decl. of John
Doe 20.)
Fact Stmt. ¶ 45.
•One man would not bring children to demonstrations in the future. (Decl. of John Doe 25.)
Fact Stmt. ¶ 46.
• One father, who was “blacklisted” on the
Internet for his financial contribution in support of
traditional marriage, became so concerned for the
safety of his children that he contacted the children’s principal and made it explicit that only he or
his wife were authorized to pick up the children
from school. (Decl. of John Doe 23.)
Fact Stmt. ¶ 47.
• One man reported that although he intends to
support causes similar to Prop. 8 in the future, he
will look for alternative ways to contribute his
money, which may involve finding a way to donate
anonymously or through an organization that
would allow him to keep his personal information
and support from becoming public record. (Decl. of
John Doe 53.)
Fact Stmt. ¶ 48.
• In one community, speech was chilled so significantly that newspaper editors could not convince anyone to submit opinion pieces presenting
countervailing views in the same-sex marriage debate, absent a solemn pledge to keep their names
anonymous. In 2008, the student newspaper at the
University of California, San Francisco decided to
reverse its policy prohibiting anonymous opinion
letters—but only in the case of the same-sex marriage debate. The newspaper was prompted to make
this special exception because it had “printed many

29

articles from those opposing Prop 8, but hadn’t received any from the other side.” After tracking
down someone with a pro-traditional-marriage
opinion, the newspaper endeavored “to get the
writer to agree to use his name, but he refused, citing fear of harassment.” (Ex. 4-101.)
Fact Stmt. ¶ 49.
• The editors of the paper treated seriously the
decision to break from their standard policy. In a
formal announcement explaining their rationale,
the editors cited a newspaper article by the San
Francisco Chronicle’s Editorial Page Editor John
Diaz that revealed what happened to a gentleman
who had written a letter to the editor pleading with
readers to “[p]lease show respect for democracy.”
(See discussion of Diaz’s article in Plaintiffs’ opening brief at pages 10–11.) The student editors concluded, “In this democracy, the way to rectify errors
at the polls is to convince a majority at a future
election of the rightness of your cause. No matter
how passionately one feels about an issue, it is important to maintain a civil dialogue and a reasoned
debate.” (Ex. 4-101.)
Fact Stmt. ¶ 50.
• One woman reported that she is worried that
she may lose her job as a result of her support for
Prop 8. She wrote two letters to the editor advocating against same-sex marriage. The day after one of
the letters was published, she heard her boss (who
she suspects is a homosexual) conversing with an
openly homosexual man in “[un]complimentary”
tones. And a few weeks later her boss called her in
and told her “he could not guarantee [her] job beyond the current year” and that she would be wise

30

to “keep [her] options open.” She “suspect[s]” that
her support for Prop. 8 put her job “in jeopardy.”
(Decl. of John Doe 16.)
Fact Stmt. ¶ 51.
• One man received several harassing and
threatening phone messages and emails at work,
some of which indicated that the senders knew
where he worked and that they were going to attempt to have him fired. His co-workers, in fact,
received emails informing them that he came “from
a long line of bigots and racists.” (Decl. of John Doe
9.)
Fact Stmt. ¶ 52.
Thus, the result of these harassing actions was individuals intimidated from engaging in political speech
and association. Though most prevalent in California,
intimidation efforts have been directed at supporters of
traditional marriage across the country.13 Given
13

The harm to exposed Prop 8 contributors continued for
years. See, e.g., Salvador Rodriguez, Mozilla CEO Brendan
Eich Resigns under Fire for Supporting Prop. 8, L.A. Times
(Apr. 3, 2014), articles.latimes.com/2014/apr/03/business/lafi-tn-mozilla-ceo-resigns-under-fire-prop-8-20140403. The
system of matching people’s contributions and views with
their addresses and other personal information that maximized the Prop 8 flood of threats and harassment has been
replicated, expanded, and made almost instantly deployable. Even journalists are subject to having their personally
identifying information exposed. See, e.g., Reporters Committee for Freedom of the Press, The Dangers of Doxxing
(Spring 2015), www.rcfp.org/journals/news-media-and-lawspring-2015/dangers-doxxing (“doxxing” “involves serious
intimidation, harassment and threats against journalists
that could interfere with their reporting, place them in real

31

current cancel culture and its enablement by Internet,
social media, and the like, great care must be taken to
protect the freedom of speech and association.
D. This Court and its members have cited and
acted on the ProtectMarriage record.
This Court and its members have cited and acted on
the evidence in ProtectMarriage, making it the quintessential example of threats, harassment, and reprisals
emanating from disclosure of contributors:
∙ In Hollingsworth v. Perry, 558 U.S. 183 (2010), the
Court relied on the record in ProtectMarriage in
staying broadcast of the Prop 8 trial. Id. at 185-86.
∙ In Doe v. Reed, 561 U.S. 186 (2010) (harassment of
traditional-marriage supporters), this Court rejected a facial challenge to Washington’s petitionsigner disclosure but remanded for a possible exemption, id. at 200, and, concurring, Justice Alito
said “widespread harassment and intimidation suffered by supporters of California’s Proposition 8
provides strong support for an as-applied exemption
in the present case,” id. 205.
∙ In Citizens United, 558 U.S. 310, this Court cited
amici briefs about harassment of Proposition 8 supporters, saying it was “cause for concern,” id. at
370, and Justice Thomas relied on the record in
ProtectMarriage in dissenting from upholding contributor disclosure, id. at 480-85 (noting, inter alia,
danger and, ultimately, drive them from the work they
love.”). Ordinary disagreement is now considered to justify
invoking violence. See Peter Boghossian, Welcome to Culture War 2.0: The Great Realignment (Nov. 8, 2019),
americanmind.org/essays/welcome-to-culture-war-2-0).

32

that “opponents of Proposition 8 compiled [government-disclosed personally-identifying contributor
information] and created Web sites with maps
showing the locations of homes or businesses of
Proposition 8 supporters.”).
Because compelled donor disclosure chills association and collective speech, it always requires strong,
special justification (and also exemptions for organizations with a reasonable probability of threats, harassments, or reprisals). The ProtectMarriage evidence is a
sobering modern demonstration of the alacrity with
which campaigns to harass donors are carried out and
of the chill on donors resulting from such campaigns.
E. The ProtectMarriage record supports requiring strong, special justification for compelled
disclosure of political and ideological association.
The ProtectMarriage record supports requiring
strong, special justification for compelled disclosure of
political and ideological association here. Submitting
Schedules B to California exposes donors’ names and
addresses to state officials and personnel and a serious
risk of public disclosure. Multiplying the places where
Schedules Bs are required amplifies the risk of exposure. Advocacy organizations exist to promote views on
public issues that are universally controversial somewhere. The likelihood of donor information being used
to launch harassment campaigns is heightened by the
increased polarity of opinion in our society and the
ease with which personally identifying information can
be made public and shared to organize harassment
campaigns to chill association and collective speech.
The ProtectMarriage experience teaches that a serious

33

First Amendment injury can be inflicted by public disclosure of contributors to an advocacy group. So the
compelled donor disclosure must be strongly, specially
justified.

Conclusion
Given the risk to First Amendment association and
speech, the Court should require a strong, special justification of the compelled donor disclosure at issue. Absent such justification, this Court should rule for petitioners in these consolidated cases.
Respectfully submitted,
James Bopp, Jr.
jboppjr@aol.com
Counsel of Record
Richard E. Coleson
rcoleson@bopplaw.com
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 (telephone)
812/235-3685 (facsimile)
Counsel for Amici Curiae

